CERTIFICATE OF SERVICE
NO. TBD
Lindsay Waters
Petitioner(s)
v.
State of Georgia
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the LINDSAY
WATERS PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Melissa Tatum
Sr. Deputy Chief Asst. Solicitor General
Cobb Cty. Solicitor General Office
10 East Park Square, Suite 500
Marietta, GA 30090
(770) 528-8500
melissa.tatum@cobbcounty.org
Counsel for State of Georgia

Christopher Carr
Office of the Attorney General of Georgia
40 Capitol Square, SW
Atlanta, GA 30334
(404) 656-3300
ccarr@law.ga.gov
Counsel for State of Georgia

Lucas DeDeus

February 3, 2020
SCP Tracking: Willis-6000 Lake Forrest Drive-Cover White

